VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Benefits 

                                                                     Administration 

                                                                            Audit of 

                                                                       Post-9/11 G.I. Bill 

                                                                        Monthly Housing 

                                                                      Allowance and Book 

                                                                       Stipend Payments 





                                                                                       July 11, 2014
                                                                                       13-01452-214
            ACRONYMS AND ABBREVIATIONS 


FY          Fiscal Year
LTS         Long Term Solution
OIG         Office of Inspector General
RPO         Regional Processing Office
VA          Veterans Affairs
VBA         Veterans Benefits Administration
WEAMS       Web Enabled Approval Management System




      To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 Hotline Information: www.va.gov/oig/hotline

                   Report Highlights: Audit of VBA’s
                   Post-9/11 G.I. Bill Monthly Housing
                   Allowance and Book Stipend Payments

Why We Did This Audit                            What We Recommended
We evaluated the Veterans Benefits               We recommended the Under Secretary for
Administration’s (VBA) management of             Benefits provide veterans additional
Post-9/11 G.I. Bill monthly housing              information on educational benefits and the
allowance and book stipend payments. We          requirement to relinquish other education
performed this audit due to the size of the      benefits before the submission of
program and the financial risks associated       applications, and establish a timeliness
with benefits delivery. During calendar year     standard for the submission of enrollment
2013, VBA paid about $5.4 billion in             certifications. We also recommended the
housing allowances and book stipends to          Under Secretary for Benefits reinforce the
approximately 789,000 students.                  need for training and monitoring of school
                                                 certifying officials, improve monitoring of
What We Found                                    VBA claims processing staff, address
                                                 automated claims processing programming
Our review of 200 students found                 issues, reconcile book stipend collection
that 92 (46 percent) experienced processing      procedures,     and     collect outstanding
delays in the approval of their original         improper payments.
claims, and 35 (18 percent) students
experienced payment processing delays in         Agency Comments
their housing allowance and book stipends.
Fifteen of the 35 students received about        The Under Secretary for Benefits
$32,000 in payments an average of about          concurred with our recommendations and
73 days after the start of their school terms.   provided plans t o c o m p l e t e corrective
                                                 actions by December 31, 2014. We
In addition, 39 (20 percent) students            consider the actions acceptable and will
received 125 improper payments valued at         follow up on their implementation.
approximately $128,000 and 8 students
received about $2,400 in book stipends that
were not recovered after the students
withdrew from courses. Thus, we estimated
students    annually   experience    about
$60.8 million in payment processing delays
and about $41 million in improper or                       LINDA A. HALLIDAY
inaccurate payments.                                    Assistant Inspector General
                                                        for Audits and Evaluations
Over the next 5 years, we estimated that
students will experience about $205 million
in inaccurate payments if Post-9/11 G.I. Bill
claims processing controls are not
strengthened.
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding 1              Improved Outreach and Education Can Improve the Timeliness of 

                           Payments .............................................................................................................2
 

                           Recommendations ...............................................................................................7
 

    Finding 2              Strengthened Program and Claims Processing Controls Can Improve 

                           Accuracy and Recovery of Payments .................................................................9
 

                           Recommendations .............................................................................................12 


Appendix A                 Background .......................................................................................................14
 

Appendix B                 Scope and Methodology....................................................................................16 


Appendix C                 Statistical Sampling Methodology ....................................................................18 


Appendix D                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments .....................................................................................................20
 

Appendix E                 Under Secretary for Benefits Comments ..........................................................21 


Appendix F                 Office of Inspector General Contact and Staff Acknowledgments...................24 


Appendix G                 Report Distribution........................................................................................... 25
 
                Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments



                     INTRODUCTION
Objective            The audit evaluated the Veterans Benefits Administration’s (VBA)
                     management of monthly housing allowances and book stipends paid under
                     the Post-9/11 Veterans Educational Assistance Act of 2008 (Post-9/11 G.I.
                     Bill). We assessed whether housing allowance and book stipend payments
                     made to eligible students were paid accurately and in a timely manner.

The Post-9/11        On June 30, 2008, the Post-9/11 G.I. Bill expanded education assistance
G.I. Bill            benefits to veterans who were on active duty on or after September 11, 2001.
                     The bill provided eligible veterans tuition assistance, allowed the transfer of
                     benefits to spouses and dependent children, and authorized the payment of
                     housing allowances and book stipends.

Program Office       VBA’s Education Service administers education assistance programs,
Responsibilities     including the Post-9/11 G.I. Bill to help veterans and eligible family
                     members (students) achieve their educational, vocational, and professional
                     goals. Education Service assists veterans with readjustment to civilian life
                     and provides benefits to qualified persons who might not otherwise be able
                     to afford a higher education.

The Post-9/11        Veterans submit paper and online original claim applications for
G.I. Bill Claims     Post-9/11 G.I. Bill benefits to VBA Regional Processing Offices (RPOs) that
Process
                     may require additional manual processing before the applications are
                     approved. After VBA RPO staff approve the original claims, school
                     certifying officials at the educational and vocational institutions must submit
                     enrollment certifications to the VBA RPOs to initiate the students’
                     supplemental claims for housing allowances and book stipends. VBA RPOs
                     use VA’s Long Term Solution (LTS) system, which was upgraded in
                     September 2012, with end-to-end automation to more quickly process
                     supplemental claims for housing allowances and book stipends. VBA RPO
                     staff review the enrollment certifications and authorize payment of the
                     supplemental claims in LTS. LTS automatically approves the Post-9/11 G.I.
                     Bill housing allowances and book stipends as long as there are no changes in
                     the students’ enrollments.

Program              During calendar year 2013, VBA paid approximately $5.4 billion in housing
Magnitude            allowances and book stipends to approximately 789,000 students.
                     Specifically, VBA paid approximately $4.9 billion in housing allowances
                     and approximately $496.1 million in book stipends.

Other                The following appendixes provide additional information:
Information
                     •   Appendix A provides background information.
                     •   Appendix B provides details on the audit’s scope and methodology.



VA Office of Inspector General                                                                      1
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments



                    RESULTS AND RECOMMENDATIONS
Finding 1           Improved Outreach and Education Can Improve the
                    Timeliness of Payments

                    VBA’s LTS system upgrade improved the timeliness of Post-9/11 G.I. Bill
                    housing allowances and book stipends. However, additional improvements
                    in the timely processing of housing allowances and book stipends could be
                    made if veterans and school certifying officials were better informed about
                    Post-9/11 G.I. Bill claims processing requirements.

                    We found that 92 of 200 (46 percent) students experienced processing delays
                    in the approval of their original claims, and 35 (18 percent) students
                    experienced processing delays in the payment of 41 of the
                    262 (16 percent) supplemental claims reviewed after the LTS system
                    upgrade. Further, 15 (37 percent) of the supplemental claims with
                    processing delays were paid an average of 73 days after the start of the
                    students’ terms. Based on these results, we estimated that approximately
                    77,800 students annually experience delays in the processing of about
                    $60.8 million in housing allowances and book stipends.

                    Significant delays in the processing of original claims occurred when
                    applications were inaccurate or incomplete and required lengthy manual
                    development. Additionally, school certifying officials did not always timely
                    submit student enrollment certifications and updates needed to ensure the
                    timely processing of supplemental claims. Further, VBA did not have an
                    effective monitoring process to ensure schools submitted enrollment
                    certifications and updates.

                    Supplemental claim processing delays should be reduced and avoided,
                    whenever possible, because delays in the payment of housing allowances and
                    book stipends can create significant financial hardship and stress for
                    students. Improved education regarding Post-9/11 G.I. Bill original claims
                    and outreach to ensure the timely submission of enrollment information and
                    changes could help prevent processing delays in the payment of an estimated
                    $60.8 million in housing allowances and book stipends to approximately
                    77,800 students annually.

Untimely and        Original claims still require manual processing when veterans submit paper
Incomplete          applications and/or submit applications that are incomplete or inaccurate.
Original
Claims Causes
                    For an incomplete or inaccurate application, VBA RPO staff must follow up
Delay               with the veteran. The follow-up can be a time-consuming process because
                    veterans have 30 days to respond to each mailed request for additional
                    information or documentation.




VA Office of Inspector General                                                                    2
                Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


                     When VBA RPOs process and approve original claims, they assess the
                     veterans’ eligibility, calculate the veterans’ eligibility percentages, and
                     provide the veterans’ certificates that show they are eligible for
                     Post-9/11 G.I. Bill benefits. For our sample of 200 students, 92 (46 percent)
                     of the original claims exceeded the applicable VBA original claims
                     processing target. VBA’s processing targets for original claims ranged from
                     23 to 28 days during the period the veterans filed the 200 reviewed original
                     claims. However, the processing times for these 92 original claims ranged
                     from 24 to 234 days and averaged about 58 days per claim.

                     Table 1 shows a distribution by fiscal year (FY) of the 200 reviewed original
                     claims and the 92 original claims that did not meet VBA’s original claims
                     processing targets. VA establishes and publishes its original claims
                     processing target for each fiscal year in its annual VA Performance and
                     Accountability Report.

                                 Table 1. Results of Original Claims Review
                                                                                          Average
                      VA Original
                                       Number of       Number of       Percentage of     Processing
                         Claims
          Fiscal                        Reviewed       Claims That     Claims That        Days for
                       Processing
          Year                         Claims by        Exceeded         Exceeded       Claims That
                          Target
                                       Fiscal Year       Target           Target         Exceeded
                        (in Days)
                                                                                           Target
         2009             24               30               19            63%               78

         2010             24               51               19            37%               56

         2011             23               57               19            33%               58

         2012             23               52               31            60%               48

         2013             28               10                4            40%               39

         Totals           N/A             200               92            46%               58
        Source: VA OIG analysis of original claims and FYs 2009–2013VA Performance and
                Accountability Reports

                     Although VBA implemented the Veterans Online Application Web site to
                     expedite the processing of original claims, we found 43 (47 percent) of
                     the 92 delayed original claims required follow-up and manual development
                     of information to process the veteran’s original claim. For example, veterans
                     who are eligible for the Post-9/11 G.I. Bill and the Montgomery G.I.
                     Educational Bill and/or Reserve Educational Assistance Program must
                     specifically elect which benefit they are giving up or “relinquishing” in order
                     to receive Post-9/11 G.I. Bill benefits. Veterans must make this election on
                     the application form and identify an effective date. VBA RPO staff cannot
                     make this decision on the veterans’ behalf. However, VBA RPO staff stated
                     that veterans often do not know which education benefits they are entitled to
                     and do not know which benefits they should relinquish. Consequently, VBA


VA Office of Inspector General                                                                        3
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


                    RPO staff manually process Post-9/11 G.I. Bill original claims and follow up
                    with veterans to address this question after they have submitted their original
                    claims.

                    The following example shows the efforts VBA RPO staff make to manually
                    develop an original claim when an education benefit has not been properly
                    relinquished.

                    	 A veteran neglected to identify which educational benefit he was
                       relinquishing on his application when he applied for Post-9/11 G.I. Bill
                       benefits. Subsequently, a letter was sent to the veteran asking him to
                       identify the educational benefit that he wished to relinquish in order to
                       receive Post-9/11 G.I. Bill benefits. It took 20 days before the VBA RPO
                       received the veteran’s response with a revised application indicating that
                       he wanted to relinquish his eligibility for the Montgomery G.I. Bill –
                       Selected Reserve Educational Assistance Program. As a result, it
                       took the VBA RPO 56 days to authorize the original claim from the date
                       the veteran submitted the claim.

                    VBA could minimize delays related to the manual processing of original
                    claims if it provided veterans additional information during the
                    Post-9/11 G.I. Bill application process. VBA online application Web sites
                    could instruct veterans on the importance of relinquishing selected education
                    benefits and advise them of potential processing delays that could occur
                    when this is not completed.

LTS Improved        In FY 2012, VA reported in its Performance and Accountability Report that
the Timeliness      VBA’s education claims target for processing supplemental claims
of
Supplemental
                    was 12 days. In FY 2013, VA raised the supplemental claims processing
Claims              target to 14 days. After the LTS system upgrade, 221 of the 262 (84 percent)
                    reviewed claims met VBA claims processing targets compared with only
                    177 of the 457 (39 percent) reviewed claims processed prior to the upgrade.

                    The LTS system upgrade incorporated 80 business rules and allowed LTS to
                    automatically authorize the majority of supplemental claims without the
                    review of VBA RPO staff. With this upgrade in place, VBA RPO staff only
                    manually process about 20 percent of the supplemental claims when a
                    business rule requires the completion of a review before authorization.




VA Office of Inspector General                                                                    4
               Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


                    Figure 1 provides a comparison of the timeliness of the supplemental claims
                    processed prior to and after the LTS system upgrade.

                                     Figure 1. Timeliness of Supplemental Claims: 

                                          Pre- and Post-LTS System Upgrade 




                            Pre-Automation                            177                   280

                                                                                                               Timely


                                    Post-                                                                      Delayed
                                                                                221                   41
                                  Automation


                                                            0%                      50%                 100%

                                 Source: VA OIG analysis of supplemental claims

Delays After        For 41 of 262 (16 percent) supplemental claims with processing delays after
LTS System          the LTS system upgrade, we determined that 35 students experienced
Upgrade
                    processing delays. The processing delays ranged from 1 to 121 days beyond
                    VA’s supplemental claims processing target and averaged about 18 days per
                    claim.

                    Figure 2 shows the distribution of the 41 supplemental claims with
                    processing delays based on the number of days the claims exceeded the
                    applicable VBA fiscal year supplemental claims processing target.

                                                   Figure 2. Delays in Supplemental Claims 

                                                          Post-LTS System Upgrade 



                                                                 24                         FY 2012
                                                                                            Target 12 Days
                                      Supplemental Claims
                                       Number of Delayed




                                                                                            FY 2013
                                                                                            Target 14 Days


                                                                                5
                                                            3               3                           3
                                                                                          1 2

                                                             1–15           16–30     31–60         60 +
                                                            Days in Excess of VA's Processing Targets

                                    Source: VA OIG analysis of supplemental claims post-LTS
                                           system upgrade


VA Office of Inspector General                                                                                           5
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


Students            To assess the financial impact processing delays had on students, we
Experience          reviewed the 41 supplemental claims processed after the LTS system
Financial
Impact of           upgrade to identify those claims where the students did not receive payments
Delays              until 30 days or more after the start of their school terms. We used 30 days
                    as our benchmark because it allowed schools approximately 2 weeks to
                    submit the students’ enrollment certifications and VBA RPOs another
                    2 weeks based on VBA’s supplemental claims’ processing targets to process
                    the claims for payment. We identified 15 (8 percent) students who received
                    approximately $32,000 in payments 33 to 147 days (an average of about
                    73 days) after the start of their school terms. Based on these results, we
                    estimated that VBA could annually reduce processing delays in the payment
                    of approximately $60.8 million in housing allowances and book stipends to
                    approximately 77,800 students.

Late                VBA RPOs are reliant upon school certifying officials to submit timely
Submissions         enrollment certifications and changes for students. When enrollment
Caused
Delays
                    certifications and changes for students are not submitted timely by school
                    certifying officials, VBA RPOs cannot timely process the students’
                    supplemental claims. For 21 of the 41 reviewed supplemental claims that
                    had processing delays, school certifying officials submitted enrollment
                    certifications and changes to enrollments an average of 62 days after the
                    students’ terms had started or had taken effect.

                    VBA lacks a timeliness standard for the submission of the initial enrollment
                    certifications. The School Certifying Official Handbook requests that
                    schools submit enrollment certifications as early as possible, but requires
                    school certifying officials to submit student enrollment changes affecting
                    course credits within 30 days of the change. Thus, school certifying officials
                    may submit initial enrollment certifications for students at any time after the
                    start of the term, even though Education Service officials stated that school
                    certifying officials are expected to submit initial enrollments without delay.

                    School certifying officials may not always be aware of Education Service’s
                    expectations if they have not completed the recommended VBA online
                    school certifying official training. Only 14 of the 189 (7 percent) school
                    certifying officials who responded when we asked about training indicated
                    they had completed the online training. Finally, although VBA established a
                    30-day timeliness standard for the schools to submit enrollment changes for
                    students, VBA RPO staff lacked an effective process to monitor the schools’
                    compliance with this requirement and generally did not follow up or contact
                    school certifying officials who did not comply.

Conclusion          The timeliness of housing allowance and book stipend payments is critical to
                    students who rely on these payments for financial support as they pursue
                    their educational goals. With Congress expanding eligibility and more
                    veterans taking advantage of the Post-9/11 G.I. Bill, VBA faces a growing
                    need to timely process an ever increasing number of original and


VA Office of Inspector General                                                                    6
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


                    supplemental Post-9/11 G.I. Bill claims. The LTS system upgrade has
                    significantly improved the timeliness of housing allowance and book stipend
                    payments. However, VBA will need to focus on timeliness as its workload
                    increases. Strengthened Post-9/11 G.I. Bill controls that help educate
                    veterans and school certifying officials on program requirements and that
                    emphasize their role in minimizing processing delays could help VBA
                    further reduce the processing delays in the payment of an estimated
                    $60.8 million in supplemental claims to approximately 77,800 students
                    annually. VBA also needs a process to monitor and follow up on schools
                    when they do not comply with program requirements.

                    Recommendations

                     1.	 We recommended the Under Secretary for Benefits ensure the
                         Post-9/11 G.I. Bill application provides veterans with clear, adequate
                         information on educational benefits and the requirement to relinquish
                         other education benefits before submission.

                     2.	 We recommended the Under Secretary for Benefits determine and
                         establish a timeliness standard for the submission of initial enrollment
                         certifications and a mechanism to monitor school certifying officials’
                         compliance with the submission of initial enrollment certifications and
                         changes.

                     3.	 We recommended the Under Secretary for Benefits reinforce the need
                         for school certifying officials to complete available Veterans Benefit
                         Administration online training on the timely and accurate reporting of
                         enrollments and changes through the Veterans Affairs Online
                         Certification Enrollment system.

Management          The Under Secretary for Benefits agreed with our findings and
Comments            recommendations and plans to address our recommendations by
and OIG
Response
                    December 1, 2014. VBA will review the original benefits application form
                    to ensure that it provides complete, well-defined information about
                    educational benefits and the requirement to relinquish eligibility under
                    another education program when electing Post-9/11 GI Bill benefits and will
                    then make any necessary revisions to the application form.

                    VBA’s Education Service will determine and establish a timeliness standard
                    for submitting student enrollment certifications for inclusion in the School
                    Certifying Official Handbook and will review this standard with school
                    certifying officials during compliance visits.

                    VBA’s Education Service will reiterate the availability and importance of the
                    online School Certifying Official training and the importance of submitting
                    timely enrollment information during its next quarterly webinar in



VA Office of Inspector General                                                                    7
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


                    August 2014. Education Service will also issue an email reminding school
                    certifying officials of available training.

                    The Under Secretary provided a responsive action plan to address our
                    recommendations. We will monitor the VA’s progress and follow up on its
                    implementation until all proposed actions are completed.




VA Office of Inspector General                                                                    8
                 Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


Finding 2             Strengthened Program and Claims Processing Controls
                      Can Improve Accuracy and Recovery of Payments

                      During our review of the approximately $2.3 million in housing allowances
                      and book stipends paid to the 200 reviewed students, we determined that
                      VBA RPOs made 125 improper payments totaling about $128,000 to
                      39 (20 percent) students. These payments were improper because they
                      should not have been made, were made to an ineligible recipient, or were
                      made for the incorrect amount. In addition, VBA RPO staff made 12 book
                      stipend payments totaling about $2,400 to 8 (4 percent) students and did not
                      pursue repayment of the stipends after students withdrew from the courses.

                      Improper payments occurred because school certifying officials submitted
                      enrollment information that was not timely and/or accurate. Further, VBA
                      RPO staff did not always properly process supplemental claims, and missing
                      information or programming errors in LTS resulted in incorrectly calculated
                      payments. VBA RPO staff also did not pursue book stipend repayments
                      because current Education Service recovery procedures do not align with
                      Federal regulations.

                      Based on these results, we estimated that strengthened Post-9/11 G.I. Bill
                      program and claims processing controls could help VBA reduce the
                      approximately $34 million in improper payments it annually makes to
                      approximately 69,000 students or about $170 million in improper payments
                      that it will make over the next 5 years ($34 million x 5 years). Additionally,
                      VBA could avoid paying approximately $7 million in book stipend payments
                      it makes annually to about 19,000 students or about $35 million over the next
                      5 years ($7 million x 5 years) if VBA RPOs adhere to Federal regulations.

Inaccurate            VBA RPOs rely on timely and accurately reported enrollment information
Enrollment            and changes to properly process students’ housing allowance and book
Certifications
                      stipend payments. Of the 39 students who received improper payments,
                      17 (44 percent) received 64 improper payments totaling about
                      $79,500 because school certifying officials submitted inaccurate and/or
                      incomplete information to VBA RPOs. VBA policy requires school
                      certifying officials at the educational and vocational institutions to inform VA
                      of the students’ enrollment status and report any changes in enrollment
                      within 30 days.

                      We found that school certifying officials provided inaccurate information or
                      omitted important information related to the students’ dates of enrollment,
                      number of units, school breaks, and withdrawals, and percentage or level of
                      program completion. Currently, school certifying officials are not required

                      
                        OMB Circular A-123 requires agencies to report to the President and Congress an
                      estimated amount of the annual improper payments for all programs and activities
                      determined to be susceptible to significant improper payments.


VA Office of Inspector General                                                                       9
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


                    to complete VBA recommended school certifying official training, which if
                    completed, could improve the timeliness and accuracy of information
                    provided by school certifying officials. The following example illustrates
                    how overpayments can occur when school certifying officials do not report
                    timely, complete enrollment information to VBA RPOs.

                    	 A student graduated from a culinary arts school in June 2012 after
                       attending school for 9 months. The school’s certifying official did not
                       report the student’s graduation and had reported on the initial enrollment
                       certification that the student was not expected to graduate until
                       June 2013. Consequently, the VBA RPO paid the student 12 additional
                       months of housing allowances totaling approximately $15,000 after the
                       student graduated. VBA RPO staff were not aware of the error until we
                       notified them of it during our review. The VBA RPO stated it plans to
                       collect the debt.

VBA RPO             VBA RPO staff did not properly process enrollment changes for 8 students,
Processing          and this resulted in 38 (30 percent) improper payments totaling about
Errors
                    $43,700 in housing allowances and book stipends. These overpayments
                    occurred because VBA RPO staff incorrectly inputted or updated veterans’
                    lengths of service when they calculated the percentage of benefit payments
                    the students should receive. In addition, VBA RPO staff did not correctly
                    process enrollment changes, such as program completions and course
                    withdrawals. Further, quarterly quality reviews of VBA RPO claims
                    performed by Education Service did not specifically include a sample of
                    enrollment changes for review. The following example shows how VBA
                    RPO staff did not always process enrollment changes in accordance with
                    VBA policy and how it created an overpayment.

                    	 A student received duplicate housing allowance and book stipend
                       payments because a school certifying official erroneously submitted
                       amendments for the 24 monthly terms the student had already completed
                       and been paid. VBA RPO staff did not contact the school certifying
                       official to verify the changes were correct and proceeded to delete the
                       previously approved enrollments and re-establish them. As a result, the
                       VBA RPO issued the student duplicate payments for the 24 terms and
                       overpaid the student about $34,100 in housing allowances and book
                       stipends. VBA RPO staff were not aware of the error until we notified
                       them during our review. The student had not made any attempt to contact
                       the VBA RPO about repaying the funds 1 year after the issuance of the
                       duplicate payments. After we notified the VBA RPO of the duplicate
                       payments, a debt was established to recover these payments.

LTS                 LTS also     did not correctly compute housing allowance and book stipend
Processing          payments     for 14 (36 percent) students and this resulted in 23 (18 percent)
Issues
                    improper      payments totaling approximately $4,700.         These improper
                    payments     occurred because LTS was either not properly programmed or


VA Office of Inspector General                                                                   10
               Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


                    lacked the information it needed to calculate the correct payment amount
                    using the students’ course load (rate of pursuit). The course load is
                    calculated by taking the number of course credits a student is enrolled and
                    dividing it by the number of credits considered full time at that institution.
                    Federal regulation states when a student’s enrollment is 50 percent or less,
                    the book stipend should be multiplied by the course load and the number of
                    credits the student has enrolled in for that term. However, LTS is not
                    currently programmed to perform this calculation for students when their
                    enrollments are 50 percent or less.

                    In addition, LTS uses information from VBA’s Web Enabled Approval
                    Management System (WEAMS) to determine a student’s course load to
                    calculate housing allowance and book stipend payments. However, VBA
                    RPO staff did not always update WEAMS to ensure it contained accurate
                    full-time equivalency information in the schools’ profiles. The following
                    example illustrates how information contained in WEAMS and the student’s
                    course load in LTS affected the accuracy of book stipend payments.

                    	 LTS calculated a graduate student enrolled with three semester credits at
                       a school had a course load of 100 percent because WEAMS data
                       indicated full-time equivalency at the school was three semester credits.
                       Subsequently, VBA RPO staff authorized the claim and the student
                       received a $125 book stipend. We verified the school’s information and
                       determined that a full-time graduate student must take a minimum
                       of six semester credits per term to be considered full-time. Based on the
                       correct school information, the student’s course load was actually
                       50 percent, and the student was overpaid about $63 in book stipends for
                       the term.

Recovery of         VBA RPO staff did not initiate the recovery of about $2,400 in book stipends
Book Stipend        paid to eight (4 percent) students who withdrew before they completed the
Payments
                    courses. These students did not have mitigating circumstances and VBA
                    RPO staff should have created an overpayment based on Federal regulation.
                    As a general practice, the VBA RPOs did not recover book stipends after the
                    students withdrew even though it was required. Federal regulation states
                    students who do not complete course work are required to repay the book
                    stipends if there are no mitigating circumstances that prevent the completion
                    of a program of education, such as an illness or death of a family member.

Effect of           As a result, we estimated that strengthened Post-9/11 G.I. Bill program and
Improving           claims processing controls could help VBA reduce an estimated $34 million
Accuracy and
Recovery of
                    in improper payments it annually pays approximately 69,000 students or
Payments            about $170 million it will pay students over the next 5 years ($34 million
                    x 5 years). Additionally, VBA could avoid paying approximately $7 million
                    in book stipends it annually pays to about 19,000 students or about
                    $35 million over the next 5 years ($7 million x 5 years). In total, we believe
                    that strengthened Post-9/11 G.I. Bill claims processing controls could help


VA Office of Inspector General                                                                    11
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


                    VBA reduce payment inaccuracies and increase recoveries of an estimated
                    $205 million ($41 million x 5) in payments made to approximately
                    441,000 students (88,200 students x 5) over the next 5 years.

Conclusion          VBA needs to implement effective controls to ensure Post-9/11 G.I. Bill
                    payments are accurately processed. In VA’s 2013 Performance and
                    Accountability Report, VA acknowledged its reliance on veterans,
                    beneficiaries, and other outside parties to notify VA of events that may affect
                    benefit payments. Further, VA stated that late notification of these events
                    subsequently causes improper payments until proper notice is provided. If
                    VBA is to reduce improper payments for Post-9/11 G.I. Bill housing
                    allowances and book stipends, it must encourage and facilitate the schools’
                    submission of accurate, complete, and timely student enrollment information
                    and put effective monitoring controls in place. Inaccurate housing allowance
                    and book stipend payments create a financial burden for students as
                    overpayments can create significant debts that students may later be required
                    to repay.

                    Recommendations

                    4. We recommended the Under Secretary for Benefits ensure Education
                    Service establishes a monitoring mechanism to include reviews of enrollment
                    changes in its quarterly quality reviews of Regional Processing Office
                    claims.

                    5. We recommended the Under Secretary for Benefits ensure Long Term
                    Solution calculations for book stipends align with the regulatory
                    requirements established for students who are enrolled at 50 percent or less.

                    6. We recommended the Under Secretary for Benefits ensure Veterans
                    Benefit Administration Regional Processing Office staff regularly update
                    school information in the Web Enabled Approval Management System and
                    include accurate full-time equivalency information in the schools’ profiles.

                    7. We recommended the Under Secretary for Benefits reconcile Education
                    Service procedures and Federal regulations and decide whether or not book
                    stipends will be recovered from students who withdraw from courses without
                    mitigating circumstances.

                    8. We recommended the Under Secretary for Benefits ensure the Veterans
                    Benefits Administration collects outstanding improper payments identified
                    by this audit as defined by the Improper Payments Elimination and Recovery
                    Act.




VA Office of Inspector General                                                                   12
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


Management          The Under Secretary for Benefits agreed with our findings and
Comments            recommendations and plans to address our recommendations by
and OIG
Response
                    December 31, 2014. VBA’s Education Service will review its quality review
                    processes and develop a plan to ensure sufficient student enrollment
                    certification changes are sampled during these reviews.

                    VBA is in the process of revising the regulation regarding book stipend
                    payments so that the regulation aligns with its current practices. Once the
                    regulation update is complete, Long Term Solution calculations will comply
                    with the regulations. VBA’s Education Service will issue a training
                    reminder to RPO staff to regularly update school information in the Web
                    Enabled Approval Management System and will discuss this topic in its
                    training conference scheduled for August 2014.

                    VBA’s Education Service will issue procedures for RPOs to adjust the
                    educational assistance payments of students who withdraw from courses
                    without mitigating circumstances. Book stipend payment adjustments will
                    align with regulations once these procedures are implemented. Finally,
                    Education Service will review the 43 cases with improper payments
                    identified during the audit and take action to recover debts.

                    The Under Secretary provided a responsive action plan to address our
                    recommendations. We will monitor the VA’s progress and follow up on its
                    implementation until all proposed actions are completed.




VA Office of Inspector General                                                                   13
                Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


Appendix A           Background

Purpose of the       The Post-9/11 Veterans Educational Assistance Act of 2008 provides
Post-9/11 G.I.       veterans with educational benefits to assist with the readjustment to civilian
Bill Program
                     life. On January 4, 2011, Public Law 111-377 amended the Act by
                     expanding eligibility for benefits to members of the National Guard and
                     expanding eligible educational programs to include options, such as
                     non-college degree programs, on-the-job training, and apprenticeships.
                     Veterans are eligible for program benefits if they served a minimum of
                     90 days on active duty or at least 30 days if discharged for a
                     service-connected disability. The percentage of program benefits that
                     veterans, spouses, or other family members receive is based on the veteran’s
                     qualifying days of service.

Regional             VBA RPOs process veterans’ original education benefits applications and
Processing           subsequent supplemental educational claims submitted by school certifying
Offices
                     officials on behalf of the students. VBA RPOs are located in Atlanta, GA;
                     St. Louis, MO; Buffalo, NY; and Muskogee, OK. VBA’s Office of Field
                     Operations facilitates performance and workload management for the four
                     VBA RPOs.

Timeliness of        VA’s Performance and Accountability Report describes VA’s
Claims               accomplishments and progress each year toward fulfilling its mission.
                     Performance measurement information and goals set forth in the report
                     enable management to make necessary assessments and improvements. One
                     key measure in the report is VBA’s strategic targets for the average number
                     of days it should take to process original and supplemental education claims.
                     Education Service does not have specific claims processing targets for
                     Post-9/11 G.I. Bill claims, so it applies the general strategic targets reported
                     in VA’s annual Performance and Accountability Report. Table 2 provides
                     VA’s strategic targets for education claims processing in FYs 2009—2013.

                                    Table 2. VA Performance and Accountability

                                              Report Strategic Targets

                                                       Original Claims       Supplemental
                                     Fiscal Year
                                                            (days)           Claims (days)
                                        2009                  24                   10

                                        2010                  24                   10

                                        2011                  23                   12

                                        2012                  23                   12

                                        2013                  28                   14
                                 Source: VA Performance and Accountability Reports Fiscal
                                        Years 2009-2013



VA Office of Inspector General                                                                     14
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


Monthly             The Post-9/11 G.I. Bill provides housing allowance and other benefits to
Housing             students attending a program of education on a more than half-time basis.
Allowance
                    This amount is equal to the Department of Defense’s Basic Allowance for
                    Housing payable to members of the military in pay grade E-5 with
                    dependents per section 3313(c)(1)(B)(i), Title 38, United States Code.

                    VBA prorates housing allowances based on the veteran’s length of military
                    service (active duty), the course load, and the zip code in which the
                    program’s administrative office resides. In addition, the program offered a
                    monthly distance learning (online course) housing allowance rate of $684 for
                    2012 (50 percent of the national average Basic Allowance for Housing rate)
                    prorated based on the student’s course load.

Books and           The Post-9/11 G.I. Bill provides lump sum payments per quarter, term, or
Supplies            semester of up to $1,000 to students for books and supplies each academic
                    year. Book stipends are paid proportionately based on the length of active
                    duty military service and the number of units/hours enrolled during the
                    academic term. Debt obligations are established when students are overpaid
                    a stipend distributed for the quarter, term, or semester for which the student
                    has not completed one or more courses and lacks mitigating circumstances.




VA Office of Inspector General                                                                   15
               Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


Appendix B          Scope and Methodology

Scope               We conducted our audit work from March 2013 through May 2014. The
                    audit focused on housing allowance and book stipend payments processed by
                    the four VBA RPOs during the 12-month period ending March 31, 2013.
                    We developed a sampling methodology that resulted in the review of
                    200 students (50 students at each of the 4 VBA RPOs).

Methodology         For each statistically selected student, we validated VBA’s student records
                    and payment calculations against school-supplied information to verify
                    student eligibility and the accuracy of payments.

                    We evaluated the timeliness of original and supplemental claims by counting
                    the elapsed days between the date the claim was submitted to the date the
                    claim was authorized for payment. We reviewed students with supplemental
                    claims that were paid during our 12-month review period ending
                    March 31, 2013. To assess the delays and financial impact experienced by
                    the students, we identified housing allowances and book stipend payments
                    paid more than 30 days after the start of the student’s term. Lastly, we
                    interviewed local VBA RPO staff and management to determine and
                    evaluate any local policies and procedures for processing the claims. We
                    reviewed all findings with the VBA RPOs’ supervisory and senior Veterans
                    Claims Examiners and received their concurrence on reported exceptions.

Fraud               The audit team assessed the risk that fraud, violations of legal and regulatory
Assessment          requirements, and abuse could occur during this audit. The audit team
                    exercised due diligence in staying alert to any fraud indicators by taking
                    actions such as:

                    	 Soliciting the OIG’s Office of Investigations for potential fraud
                       indicators
                    	 Reviewing sampled students to ensure they met eligibility requirements

                    We did not identify any instances of fraud during this audit.

Data Reliability    To achieve the audit’s objectives, we relied on computer-processed data
                    contained in VA’s Benefits Delivery Network reporting system. We
                    assessed the reliability of this data by tracing the accuracy of student
                    information across various VA and Department of Defense systems.
                    Additional data reliability tests included steps to identify any missing data in
                    key fields, calculation errors, and data outside of our period of performance.
                    Based on these tests and assessments, we concluded the data were
                    sufficiently reliable to use to meet the audit’s objectives.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           audit objectives. We conducted this performance audit in accordance with



VA Office of Inspector General                                                                    16
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                   17
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


Appendix C          Statistical Sampling Methodology

Population          The audit focused on housing allowances and book stipend payments during
                    the 12-month period ending March 31, 2013. Our population captured both
                    pre- and post-LTS automated claims. We selected the population based on
                    the parameters of the audit objective and identified $5 billion in VA’s
                    Benefits Delivery Network housing allowance and book stipend payments
                    made to about to 731,000 students during our 12-month period.

Sampling            We developed a stratification sampling design to ensure that all students had
Design              a chance of being selected for review. The sampling design was
                    representative and ensured projections describe the entire population. The
                    sampling methodology resulted in the review of 200 randomly selected
                    students (50 students at each of the 4 VBA RPOs) who received housing
                    allowance and book stipend payments totaling about $2.3 million.

Weights             We calculated estimates in this report using weighted sample data. Sampling
                    weights are computed by taking the product of the inverse of the
                    probabilities of selection at each stage of sampling. Since each VBA RPO
                    had a different number of students and the sample sizes were the same across
                    all VBA RPOs, the sampling weights varied in size. This accounts for the
                    percentages calculated from the raw sample numbers being different from
                    the percentages calculated from the weighted projections.

Projections         The margins of error and confidence intervals are indicators of the precision
and Margins of      of the estimates. If we repeated this audit with multiple samples, the
Error
                    confidence intervals would differ for each sample, but would include the true
                    population value 90 percent of the time.

                    We used the lower limit of the 90 percent confidence interval for each
                    projection. We projected that 77,800 students annually experience delays in
                    the receipt of $60.8 million in housing allowance and book stipends
                    payments. In addition, we projected that VBA inaccurately pays about
                    $41 million in housing allowance and book stipend payments to about
                    88,200 students annually. Strengthened Post-9/11 G.I. Bill program and
                    claims processing controls could help VBA reduce payment inaccuracies
                    affecting approximately $205 million ($41 million annually x 5 years) in
                    housing allowances and book stipends that will be paid to as many as
                    441,000 students (88,200 students x 5 years) over the next 5 years.

                    Table 3 provides the projections associated with Post-9/11 G.I. Bill delayed
                    claims and inaccurate payments for housing allowances and books stipends.




VA Office of Inspector General                                                                   18
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


                                       Table 3. Statistical Projections Summary
                                               (Dollars Are in Thousands)

                                                            Lower                       Upper        Margin of
                                 Error Types                               Estimate
                                                            Limit*                      Limit         Error

                      Supplemental Claims with
                      Processing Delays—Student              77,800         115,000      152,000       37,100
                      Count

                      Supplemental Claims with
                                                           $60,800         $130,500    $200,200      $69,700
                      Processing Delays—Amount

                      Inaccurate Housing Allowance
                      and Book Stipend Payments—             88,200         128,000      168,000       40,000
                      Student Count
                      Inaccurate Housing Allowance
                      and Book Stipend Payments—           $41,000          $89,100    $137,300      $48,100
                      Amount
                      Source: OIG statistical analysis performed in consultation with the Office of Audits and
                           Evaluations statistician.
                      *Projected using a 90 percent confidence interval.

Improper            VBA RPOs made 125 (91 percent) erroneous or improper payments totaling
Payments            about $127,900. These 125 payments should not have been made, were
                    made to ineligible recipients, or were made for the incorrect amount. We
                    estimated that about $34 million were improper payments made to about
                    69,000 students.




VA Office of Inspector General                                                                               19
                Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


Appendix D           Potential Monetary Benefits in Accordance With
                     Inspector General Act Amendments



                                                                    Better Use of      Questioned
      Recommendation              Explanation of Benefits
                                                                       Funds             Costs

                              Strengthen program controls to
                              ensure students receive accurate
        4-8 	                 housing allowance and book                  $0           $205 million
                              stipend payments over the next 5
                              years.
                                                            Total         $0           $205 million




Potential            Based on the audit’s results, we estimated that strengthened Post-9/11 G.I.
Monetary             Bill program and claims processing controls could help VBA reduce the
Benefit
Calculation
                     approximately $34 million in improper payments it annually makes to
                     approximately 69,000 students or about $170 million in improper payments
                     that it will make over the next 5 years ($34 million x 5 years). Additionally,
                     VBA could avoid paying approximately $7 million in book stipend payments
                     it makes annually to about 19,000 students or about $35 million over the next
                     5 years ($7 million x 5 years) if VBA RPOs adhere to Federal regulations.




VA Office of Inspector General                                                                      20
                  Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


Appendix E                 Under Secretary for Benefits Comments



                Department of                                       Memorandum
                Veterans Affairs

        Date:         June 26, 2014

       From:          Under Secretary for Benefits (20)

        Subj:         OIG Draft Report— Audit of Post-9/11 G.I. Bill Monthly Housing Allowances and Book
                      Stipend Payments [Project Number 2013-01452-R7-0086] —VAIQ 7481926

         To:          Assistant Inspector General for Audits and Evaluations (52)


                 1.    Attached is VBA’s response to the OIG’s Draft Report: Audit of Post-9/11 G.I. Bill
                       Monthly Housing Allowances and Book Stipend Payments.

                 2.    Questions may be referred to Christine Ras, Program Analyst, at 461-9057.




                       Attachment




VA Office of Inspector General                                                                              21
               Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


                               Veterans Benefits Administration (VBA)

                                    Comments on OIG Draft Report

       Audit of Post-9/11 G.I. Bill Monthly Housing Allowances and Book Stipend Payments 


Veterans Benefits Administration concurs with OIG’s findings in the draft report and provides the
following comments in response to the recommendations:

Recommendation 1: We recommend the Under Secretary for Benefits ensure the Post 9/11 G.I. Bill
application provides veterans with clear, adequate information on educational benefits and requires the
relinquishment of other education benefits before submission.

VBA Response: Concur. VBA will review VA Form 22-1990, Application for VA Education Benefits, to
ensure that it provides Veterans applying for the Post 9/11 GI Bill with complete, well-defined information
about educational benefits and the requirement to relinquish eligibility under another education program
when electing Post-9/11 GI Bill benefits. VBA will then make any necessary revisions to VA Form 22-
1990.

Target Completion Date: December 31, 2014


Recommendation 2: We recommend the Under Secretary for Benefits determine and establish a
timeliness standard for the submission of initial enrollment certifications and a mechanism to monitor
school certifying officials’ compliance with the submission of initial enrollment certifications and changes.

VBA Response: Concur. VBA’s Education Service will determine and establish a timeliness standard
for submitting initial enrollment certifications. The approved standard will be published in the School
Certifying Official (SCO) Handbook and will be reviewed during compliance visits with the SCO.

Target Completion Date: September 30, 2014


Recommendation 3: We recommend the Under Secretary for Benefits reinforce the need for school
certifying officials to complete available Veterans Benefit Administration online training on the timely and
accurate reporting of enrollments and changes through the Veterans Affairs Online Certification
Enrollment system.

VBA Response: Concur. VBA’s Education Service will use its next quarterly webinar in August 2014 to
reiterate the availability and importance of the online School Certifying Official training, as well as the
importance of submitting enrollment

information timely. Education Service will also issue an email via the VA Education Liaison
Representatives reminding SCOs of available training.

Target Completion Date: September 30, 2014


Recommendation 4: We recommend the Under Secretary for Benefits ensure Education Service
establishes a monitoring mechanism to include reviews of enrollment changes in its quarterly quality
reviews of Regional Processing Office claims.

VBA Response: Concur. VBA’s Education Service will review the current quarterly quality review
sampling process. Education Service will develop a plan to ensure sufficient enrollment change
documents are included in the samples to provide VBA leadership discrete data on quality findings of
completed enrollment change documents.

Target Completion Date: September 30, 2014


VA Office of Inspector General                                                                             22
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


Recommendation 5: We recommend the Under Secretary for Benefits ensure Long Term Solution
calculations for book stipends align with the regulatory requirements established for students who are
enrolled at 50 percent or less.

VBA Response: Concur. VBA is in the process of revising the regulatory requirements regarding book
stipend payments. VBA did not intend to “double prorate” the amounts payable to students training at a
rate of 50 percent or less. Post-9/11 GI Bill recipients may receive up to $1,000 for books and supplies
each academic year. All students receiving stipends for books and supplies receive a prorated amount
based on their eligibility percentage. For example, a student eligible at 80 percent may receive up to
$800 towards books and supplies each academic year. The current regulations direct VA to further
prorate the amount payable to an individual training at 50 percent or less. In this case, an individual
eligible at 80 percent who is pursuing training at 50 percent during the academic year would only be
eligible for $400 towards books and supplies. The statute governing the payment of books and supplies
does not require VA to prorate the amount of the books and supplies stipend based on an individual’s
rate of pursuit. Once the regulation update is complete, the current Long Term Solution calculations will
align with the regulations.

Target Completion Date: December 31, 2014


Recommendation 6: We recommend the Under Secretary for Benefits ensure Veterans Benefit
Administration Regional Processing Office staff regularly update school information in the Web Enabled
Approval Management System and include accurate full-time equivalency information in the schools’
profiles.

VBA Response: Concur. VBA’s Education Service will issue a training reminder to the education liaison
staff responsible for this activity and also add this topic to the agenda for the training conference
scheduled for August 2014.

Target Completion Date: August 31, 2014


Recommendation 7: We recommend the Under Secretary for Benefits reconcile Education Service
procedures and federal regulations and decide whether or not book stipends will be recovered from
students who withdraw from courses without mitigating circumstances.

VBA Response: Concur. VBA’s Education Service will issue procedures to the Regional Processing
Offices regarding the adjustment of educational assistance payments for students who withdraw from
courses without mitigating circumstances. Once the procedures are issued and implemented, the
procedures used to adjust payments will align with the provisions in the Code of Federal Regulations.

Target Completion Date: August 31, 2014


Recommendation 8: We recommend the Under Secretary for Benefits ensure the Veterans Benefits
Administration collects outstanding improper payments identified by this audit as defined by the Improper
Payments Elimination and Recovery Act.

VBA Response: Concur. VA OIG identified 43 cases with improper payments. Education Service will
review each improper payment amount identified by VA OIG and take action to recover debts as
appropriate.

Target Completion Date: August 31, 2014




VA Office of Inspector General                                                                           23
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


Appendix F          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	               For more information about this report, please
                                                  contact the Office of Inspector General at
                                                  (202) 461-4720.

                      Acknowledgments             Janet Mah, Director
                                                  Gregory Gladhill
                                                  Herlin Guerra-Sagastume
                                                  Sunny Lei
                                                  Andrea Lui
                                                  John Panzullo
                                                  Andrea Sandoval
                                                  Nelvy Viguera Butler
                                                  Leslie Yuri




VA Office of Inspector General                                                                   24
              Audit of VBA’s Post-9/11 G.I. Bill Monthly Housing Allowance and Book Stipend Payments


Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




              This report is available on our Web site at www.va.gov/oig




VA Office of Inspector General                                                                   25
